<html>
<title> - J. GREGORY COPELAND NOMINATION</title>
<body><pre>[Senate Hearing 110-361]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-361
 
                     J. GREGORY COPELAND NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

THE NOMINATION OF J. GREGORY COPELAND, OF TEXAS, TO BE GENERAL COUNSEL 
            OF THE DEPARTMENT OF ENERGY, VICE DAVID R. HILL

                               __________

                           FEBRUARY 27, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                    U.S. GOVERNMENT PRINTING OFFICE
42-124                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Copeland, J. Gregory, Nominee to be General Counsel, Department 
  of Energy......................................................     2
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     1

                                APPENDIX

Responses to additional questions................................     9


                     J. GREGORY COPELAND NOMINATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 9:46 a.m. in room 
366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we go ahead with the hearing? 
The Committee meets this morning to consider the nomination of 
J. Gregory Copeland to be General Counsel at the Department of 
Energy. We'd also planned to consider the nomination of Stanley 
Suboleski to be Assistant Secretary for Energy for Fossil 
Energy, but he's asked that his name be withdrawn.
    Mr. Copeland is a senior partner in the law firm of Baker 
Botts in Houston, where he heads the firm's energy litigation 
practice. He brings to the table 35 years of experience in 
complex litigation in all sectors of the energy industry. He's 
tried cases involving oil, and natural gas, and coal, and 
nuclear, and gasoline, and electricity during the course of his 
long career.
    We appreciate his willingness to serve in this important 
position and welcome the opportunity to consider his 
nomination. Let me defer to Senator Domenici for any statement 
that he would like to make.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Let me say thank you for yielding, Mr. 
Chairman. We're here this morning to consider the nominee for 
an extremely important position in the Department of Energy. As 
the Department presses on with its final year to implement 
administration policies, it must have experienced and savvy 
lawyers heading up its legal team.
    Greg Copeland, the nominee before us today, by the 
Department's General Counsel to be that, certainly has the 
credentials to fill that bill. His extensive litigation 
experience in energy matters makes him an able candidate for 
this position.
    That said, Mr. Copeland will have a daunting task in 
rapidly familiarizing himself with the Department and the 
plethora of programs that it is charged with implementing. In 
that regard, I'm going to thank Chairman Bingaman for 
scheduling this hearing so soon after the nomination, and I 
hope that we'll quickly be able to report and permit him to 
take this job which, for some unknown reason, he desires.
    I welcome Mr. Copeland to the committee and look forward to 
his testimony. I do mean sincerely that we thank you so much, 
and I say I don't understand only in that it is a tough, tough 
job for a relatively few number of months, but we need you. So 
maybe that's the reason you're doing it. If it is, I'm very 
appreciative.
    The Chairman. All right. The rules of the committee that 
apply to all nominees require that they be sworn in connection 
with their testimony. Mr. Copeland, could you stand and raise 
your right hand, please?
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Mr. Copeland. I do.
    The Chairman. You may be seated. Before you begin your 
statement, I need to ask three questions that we address to 
each nominee before this committee.
    The first question is, will you be available to appear 
before this committee and other congressional committees to 
represent departmental positions and respond to issues of 
concern to the Congress?
    Mr. Copeland. I will.
    The Chairman. The second question is, are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest, or create the appearance of 
such a conflict, should you be confirmed and assume the office 
to which you've been nominated by the President?
    Mr. Copeland. Mr. Chairman, my investments, my personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government.
    I have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof to my knowledge.
    The Chairman. All right. The third question, are you 
involved or do you have any assets that are held in blind 
trust?
    Mr. Copeland. No, sir, I do not.
    The Chairman. At this point, our tradition is to invite the 
nominee to introduce any family member that you have with you, 
if you do have family members with you.
    Mr. Copeland. I'm sorry to say, Mr. Chairman, my family was 
not able to travel with me. I believe they're all, though, 
closely looking at the Internet this morning, monitoring what's 
going on.
    The Chairman. All right. Why don't you go ahead with your 
opening statement? Then, I'm sure we'll have some questions.

    TESTIMONY OF J. GREGORY COPELAND, NOMINEE TO BE GENERAL 
                 COUNSEL, DEPARTMENT OF ENERGY

    Mr. Copeland. Thank you, sir. Mr. Chairman, Senator 
Domenici, other members of the committee and their staff who 
are here today, I'm honored to appear before you today as the 
President's nominee to become the Department of Energy's 
General Counsel.
    By way of introduction, I was born and raised in Frederick, 
Oklahoma, which is a small farming community in southwest 
Oklahoma. I went to Culver Military Academy in high school, 
which is in Indiana. I returned to Oklahoma to go to college, 
and attended the University of Oklahoma, where I graduated with 
a BA degree in business and economics.
    I then went south to the University of Texas to attend law 
school, which always garners some comments from people about 
which football team I prefer. I'm not going to disclose that 
today.
    Immediately upon graduating from law school in December 
1972, I joined Baker & Botts in Houston, Texas. I've been there 
ever since. I've only had one job. I'm currently a senior 
partner in the firm and a member of the firm's executive 
committee.
    Of interest to you, perhaps, I first decided that I wanted 
to work in the energy field when I was a young law student at 
the University of Texas. In the winter of 1971-72, I 
experienced first-hand what happens when we have an energy 
shortage. At that time, as you well know, the natural gas 
pipelines in this country were all merchant pipelines, and they 
were having trouble meeting demand because of price caps on 
natural gas, which had severely limited supply that they could 
obtain from producers.
    The problem became so severe that winter that the 
university closed, and the students were sent home for several 
days. It seemed obvious to me at that point that the United 
States was going to continue to face serious energy challenges, 
and I decided then that I wanted to be involved in addressing 
them.
    That decision led me to Houston, what some people call the 
energy capital of the world, and a job with one of the world's 
leading energy firms. Today, I lead the firm's energy practice. 
In the last 35 years, as the chairman noticed, I have appeared 
before numerous Federal and State agencies, including the old 
Federal Power Commission, now the Federal Energy Regulatory 
Commission, the SCC, the NRC and others. I've appeared in State 
and Federal court in at least 15 different States that I can 
account for.
    Regardless of where I was or what I was doing, the matters 
typically involved the energy business in some way. I've 
represented oil and gas producers, large and small, refiners, 
pipelines, gas storage companies, utilities, and energy trading 
companies. I've dealt with issues relating to oil, gas, 
gasoline, natural gas, liquids, uranium, carbon dioxide, coal 
bed methane gas, lignite, and nuclear power plants, and 
transmission.
    While in the last half of my career, at least, I've been a 
trial lawyer, mostly. I've always been interested in energy 
policy. Those issues go hand in glove, of course, with the 
legal problems that I've worked on as a lawyer. I'm very aware 
today of the broad array of difficult issues that we must 
responsibly confront in order to provide safe, clean, and 
economical energy that we need in order to keep our economy 
strong.
    As I look back 35 years ago, I can say that I was right in 
predicting that the energy business would provide interesting 
challenges. But I can also say that I greatly underestimated 
those challenges. As I look forward from today into the future, 
and I think the problems that I foresee are far more complex 
than those I foresaw as a young law student in the 1970s.
    I'm very honored that President Bush would ask me to join 
the Department of Energy at this point in time. I'm confident 
that both the President and Secretary Bodman intend to continue 
working hard to deal with these complex issues. I trust that 
their choice of me is a reflection of their judgment that I 
could step in on short notice and assist them and to try to 
make a difference. I vow to you that I will do my best to do 
that.
    In closing, I would like to thank my friends and the 
partners in my firm who have supported me in taking this step. 
In particular, I must recognize Secretary Baker for his 
emphasis to the lawyers in our firm, and indeed to the 
profession as a whole, on the need for public service.
    Last, but certainly not least, I thank my wife Becky, my 
son Todd, and my daughter Rebecca, for their support in this 
new endeavor. Like your own families, they have had to endure 
weeks and sometimes months of absence over the last 35 years, 
but I know they support me in this latest endeavor, because 
they do share an awareness of the importance of the job.
    Mr. Chairman, this concludes my statement and I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Copeland follows:]

   Prepared Statement of J. Gregory Copeland, Nominee to be General 
                     Counsel, Department of Energy

    Mr. Chairman, Senator Domenici, Members of the committee, I am 
honored to appear before you today as the President's nominee to become 
the Department of Energy's General Counsel. By way of introduction, I 
was born and raised in Frederick, Oklahoma. I went to high school at 
the Culver Military Academy, returned to Oklahoma to attend the 
University of Oklahoma, where I graduated with a BA degree in 
economics, and then attended the University of Texas School of Law 
where I graduated in December, 1972. I joined the firm of Baker Botts 
in Houston, Texas in February, 1973, and I have been there ever since. 
I am currently a Senior Partner and a member of the Firm's Executive 
Committee.
    I first decided that I wanted to work in the energy field when I 
was a law student. While attending the University of Texas in the 
winter of 1971-72, I experienced first-hand what happens when we run 
short of energy. At that time, natural gas pipelines were all merchant 
pipelines and they were having trouble meeting demand because price 
caps on natural gas had severely reduced the supply of gas that was 
available to them from natural gas producers. That winter the issue 
became so severe that the university closed and sent its students home. 
It seemed obvious to me even then that the U.S. would face continued 
energy challenges and I decided that I wanted to be involved in 
addressing them. That decision led me to Houston, the energy capital of 
the world, and a job with one of the world's leading energy firms. 
Today, I lead our firm's energy litigation practice.
    In the last 35 years I have appeared before numerous state and 
federal agencies, including the Federal Power Commission, the Federal 
Energy Regulatory Commission, the Securities Exchange Commission and 
the Nuclear Regulatory Commission. I have appeared in state and federal 
courts in more than 15 states.
    Regardless of the forum, the matters that I handled have typically 
involved a client that was engaged in the energy business in some way. 
I have represented oil and gas producers, both large and small, 
refiners, pipelines, gas storage companies, utilities and energy 
trading companies. I have dealt with issues relating to oil, gas, 
gasoline, natural gas liquids, uranium, carbon dioxide, coal bed 
methane, and gas, lignite and nuclear power plants.
    Throughout my career I have been interested in the energy policy 
issues that go hand in glove with the legal problems on which I have 
worked. I am very aware of the broad array of difficult issues that we 
must responsibly confront today in order to provide the safe, clean and 
economical energy needed to keep our economy strong. As I look back on 
35 years I can say that I was right in predicting that the energy 
business would provide interesting challenges but I can also say that I 
greatly underestimated the challenges that lay ahead. And as I look 
forward it seems quite apparent that the challenges we face today and 
into the future are far more complex than the problems I foresaw as a 
young law student in the 1970s.
    I am very honored that President Bush would ask me to join the 
Department of Energy. I am confident that both the President and 
Secretary Bodman intend to continue working hard to deal with these 
complex issues, and I trust that their choice is a reflection of their 
judgment that could step in on short notice to assist them and to make 
a difference. I vow to you that I will do my best to make that happen.
    In closing, I would like to thank my friends and the partners in my 
firm who have supported me in taking this step. In particular, I must 
recognize Secretary Baker for his emphasis to the lawyers in our firm, 
and indeed to the profession as a whole, on the need for public 
service. Last, but certainly not least, I thank my wife Becky, and my 
two children, Todd and Rebecca, for their support in this new endeavor. 
Like your families, they have had to endure weeks, and sometimes 
months, of absence over the last 35 years, but I know they support me 
in this latest endeavor because they share an awareness of the 
importance of the job.
    Mr. Chairman, this concludes my statement I would be pleased to 
answer any questions.

    The Chairman. Thank you very much. Let me ask a question, 
and then defer to Senator Domenici. One issue that will come up 
very quickly once you're in this position is the whole issue of 
recusal. I think both the recusal policy here in the committee, 
but also the Government Ethics Rules, obviously, require you to 
recuse yourself from participating, personally and 
substantially, in matters involving former clients.
    I'm sure you've had several former clients that are very 
involved in issues coming before the Department of Energy. How 
do you see that affecting your ability to serve in this as head 
of the General Counsel's Office there in the Department? How do 
you anticipate--how extensive will that problem be? How do you 
expect to deal with it?
    Mr. Copeland. Based on what I understand to be the ethics 
rules, both of the DOE and the Senate, I have gone over those 
rules carefully with the Ethics Officer of the DOE, both before 
and subsequent to the nomination. Frankly, I've had that 
question raised by some of the Senators with whom I've spoken 
in the past few weeks.
    I candidly don't believe it's going to be a significant 
problem. I think that the matters that are going to come before 
the Department are not likely to create the kind of conflict 
that would just keep me from being effective in the job. But I 
have discussed that very carefully with the Ethics Officer, and 
went over this again with them yesterday, as a matter of fact, 
to make sure that I wasn't--I don't want to take a job and I 
can't do anything. It's pointless.
    So I hope I'm going to be able to operate effectively. I 
know there will be occasions where I have to recuse myself, but 
I don't expect that to cripple me in the job.
    The Chairman. All right. Thank you very much.
    Senator Domenici.
    Senator Domenici. Same question, but it seems to me, as you 
answer it, and as I think about it, we have an awful lot of 
issues that are certainly very unique to the implementation of 
our new laws, to the implementation of brand-new policies 
around here, and I don't see how many of those are going to 
require that you not participate because of conflicts of 
interest.
    I don't believe that's going to happen. But I do trust you 
that you understand if it does, you must recuse yourself.
    Mr. Copeland. Yes, sir. Absolutely.
    Senator Domenici. You don't have any doubt about that. 
Could I just ask, as a matter of personal information--
obviously, Secretary Bodman has a very big void, and he needs 
legal counsel. But just how did it come to you that you might 
serve your country in this capacity, pursuant to what you said 
Secretary Baker's admonition that you do something?
    This seems to me to--for you to jump out of your big 
practice for 10 months, service appears very unique. To our 
advantage, I would say.
    Mr. Copeland. Actually, it goes all the way back to when I 
was a young lawyer. I actually worked on licensing a couple of 
nuclear plants. Since nobody in my firm knew anything about 
that, I was secunded, in effect, to work with a wonderful 
gentleman here in Washington, named Jack Newman, who then was 
the head of the firm Newman & Holtzinger, and was the Dean of 
the Nuclear Licensing Industry.
    He was the one that called me last fall and said, ``The 
White House is going to be calling you.''
    Senator Domenici. Really?
    Mr. Copeland. ``Because I've given them your name.'' So, it 
came from Jack. Of course, I have tremendous respect for him 
and----
    Senator Domenici. He must have had for you, also.
    Mr. Copeland. I hope he did. So, you know, I certainly 
talked with people in my firm, including Secretary Baker, and 
public service is part of the fabric of our firm, and I was 
encouraged to go ahead. Obviously, by the reason of the fact 
that you've asked the question, you know I had some concerns 
about it at this point in my career.
    Senator Domenici. Of course.
    Mr. Copeland. But it did seem to me that the Department 
really did need somebody who could come here and get up to 
speed on short notice, and that given the uniqueness of my 
background, it was hard for me to deny that I was a serious 
candidate for that. So here I am.
    Senator Domenici. I want to ask one other question. When we 
developed and wrote the Energy Policy Act of 2005--which I'm 
sure by now you know we did, and it's a rather formidable piece 
of legislation, with an awful lot of policy changes for 
America. People don't think we did anything, but that law takes 
a long time to implement.
    One of the provisions in that law has to do with loan 
guarantees. Those loan guarantees that now are up--we have $18 
billion worth of authority. We don't think it's--I don't think 
it's enough, but we got caught at right at the end, and had to 
share it with another part of the development, and that's all 
right with me, as long as we get to use it.
    My question to you, it's been a challenge getting this part 
of the law implemented and getting nuclear power going, 
although it's doing wonderfully well. Will you commit to us 
that you will make it a priority to do everything you can to 
expedite implementation of this program?
    Mr. Copeland. Yes, sir. I believe very strongly in that 
program. I think it's very important, and it does need to be 
pushed as hard as it can be pushed.
    Senator Domenici. Thank you. I have no further questions.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I thank you and 
Senator Domenici for scheduling this hearing. Mr. Copeland, 
welcome, and I enjoyed our visit the other day in the office. 
As we discussed, the first area I'm going to ask you about is 
what you would be doing to clean up this mess in terms of 
environmental cleanup at Federal facilities and the Federal 
contracting debacle.
    I don't think you can describe it any other way. At 
Hanford, in our part of the country, we've seen wholesale 
failure to meet environmental compliance schedules, massive 
cost increases, Hanford contractors get the bonuses. According 
to the Department's Inspector General, the General Accounting 
Office, all of these independent agencies have pretty much said 
that these programs are a huge mess.
    Now, you, of course, would not be running the cleanup 
program, and I understand that to be the case. But you're going 
to be the Department's chief legal official, if confirmed, and 
certainly environmental compliance agreements are legally 
binding agreements. So what I'd like to know, for the purposes 
of this morning, is what would you do in this position to 
correct this abysmal, really outlandishly awful record at the 
Department of poor contracting and environmental compliance?
    Mr. Copeland. Thank you, Senator, and likewise, I enjoyed 
meeting with you the other day. I appreciate your being here 
today. First of all, it probably has gone unnoted that I do 
have quite a bit of experience with construction contracts and 
litigation in that arena. I know, basically, how complex 
projects are run. I know how they get off track, and I know how 
to analyze what causes them to get off track.
    So I think I could be effective in at least quickly 
understanding perhaps some of the problems. It seems to me, 
based on the limited amount of time that I have been studying 
and preparing to take on this position, that the Department of 
Energy is perhaps, to some extent more than other 
organizations, very dependent on independent contracts to 
perform all the obligations that they have to perform.
    I think, given that situation, if I'm accurate in that 
assumption, that you need to look at every way possible to 
strengthen the oversight of those contractors. That would be 
something I would take a hard look at.
    Senator Wyden. Let me ask it in a different way, because 
you're absolutely right about the independent contractors. If 
you're confirmed, I would like you to regularly report to the 
chairman, and the ranking minority member, and I, what the 
progress is at Hanford. Because, respectfully, we have heard 
comments much along the lines you've made and nothing much 
happens. They go further in the hole in terms of environmental 
compliance. The cost overruns increase, the bonuses continue. 
It goes on and on.
    So let me ask you, if you would, if confirmed, within 60 
days of your confirmation, I'd very much like you to send to 
the chairman, Chairman Bingaman, and Senator Domenici, so that 
it could be shared with us, what's being done specifically at 
Hanford to address these concerns.
    Mr. Chairman, do I have time for one additional question?
    The Chairman. Certainly.
    Senator Wyden. The only other question I have, Mr. 
Copeland, again along the lines that we talked about up in the 
office, is you represented industry for quite some years. You 
represented Shell Oil in a key case where the company agreed to 
pay the United States $56 million on underpaid royalties in the 
natural gas area.
    You represented Reliant in a Clayton Act case brought by 
the California Attorney General. This was a settled case, 
involving the withholding of power supplies, a variety of 
manipulative practices. So now, you would be wearing a 
different hat. You were a lawyer, and obviously a very good 
one, for the clients that you represented. But now you have a 
different set, if confirmed, which essentially means that 
consumer interests, ratepayer interests, taxpayer interests, 
all be represented.
    Tell me what assurances you can give us this morning that 
you can take on those new hats at this time.
    Mr. Copeland. You're right. It is a different hat. I 
respect that, and I understand that, and I would not have taken 
this job unless I thought I could fairly represent all the 
constituents that the Department of Energy is responsible for.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. All right. Mr. Copeland, thank you very much 
for being here. We will try to act swiftly to move your 
nomination to the Senate floor for consideration. That will 
conclude our hearing.
    Mr. Copeland. Thank you, sir. Thank you.
    [Whereupon, at 10:09 a.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of J. Gregory Copeland to Questions From Senator Wyden

    Question 1. As we have discussed, I am concerned that there may be 
a number of Departmental responsibilities and programs that would 
require your recusal because of your prior representation of clients 
with interests in the activities. For example, several companies (BP, 
Marathon, ExxonMobil) have filed comments with the Department regarding 
energy transmission corridors including but not limited to 
CO<INF>2</INF> sequestration. Other companies, such as Shell, have 
significant interests in the operation of the Strategic Petroleum 
Reserve and Oil Shale programs. Please explain whether or not the 
following Departmental activities would require your recusal: Section 
368 of the Energy Policy Act of 2005 (EPACT 2005) requires the 
Department to participate in the determination of energy corridors on 
federal land.
    Answer. I have checked with the Department's Designated Agency 
Ethics Official and have been advised that the Executive Branch-wide 
regulations governing recusals that result from prior employment or 
legal representation, as well as the committee's recusal policy, apply 
to particular matters involving specific parties in which:

  <bullet> Baker Botts is a party or represents a party for a period of 
        one year from my resignation or confirmation, whichever occurs 
        later; or
  <bullet> a former client of mine that I represented within the last 
        year, is a party or represents a party, for a period of one 
        year after I last provided service to that client or 
        confirmation, whichever occurs later; or
  <bullet> I participated personally and substantially as a partner or 
        employee in a work or service relationship when the matter is 
        one in which the Department of Energy is a party or has a 
        substantial interest, for the duration of my service as General 
        Counsel.

    ExxonMobil, while a former client of mine, was not a client that I 
represented within the last year. In addition, the Department of Energy 
was not a party to, and did not have a substantial interest in, any of 
the legal work that I participated personally and substantially in at 
Baker Botts.
    I have been advised by the Department's Designated Agency Ethics 
Official that the determination of energy corridors on federal land is 
not a particular matter involving specific parties at this time. 
Therefore, the recusal requirements do not apply to any former clients 
of mine or to Baker Botts. However, in the event that it does become a 
particular matter involving specific parties, I will recuse myself if 
(1) Baker Botts is a party or represents a party for a period of one 
year from my resignation or confirmation, whichever occurs later; or 
(2) a former client of mine that I represented within the last year, is 
a party or represents a party, for a period of one year after I last 
provided service to that client or my confirmation, whichever occurs 
later.
    Question 2. Section 1221 of EPACT 2005 requires the Department to 
initiate and coordinate of Federal authorizations for electric 
transmission facilities, including the designation of National Interest 
Transmission Corridors.
    Answer. I have been advised by the Department's Designated Agency 
Ethics Official that this initiation and coordination activity is not a 
particular matter involving specific parties at this time. Therefore, 
the recusal requirements do not apply to any former clients of mine or 
to Baker Botts. However, in the event that it does become a particular 
matter involving specific parties, I will recuse myself if (1) Baker 
Botts is a party or represents a party for a period of one year from my 
resignation or confirmation, whichever occurs later; or (2) a former 
client of mine that I represented within the last year, is a party or 
represents a party, for a period of one year after I last provided 
service to that client or my confirmation, whichever occurs later.
    Question 3. Section 1222 of EPACT 2005 requires the Department's 
Power Marketing Administrations to design and construct new 
transmission facilities in National Interest Transmission Corridors.
    Answer. I have been advised by the Department's Designated Agency 
Ethics Official that the design and construction of new transmission 
facilities in National Interest Transmission Corridors is not a 
particular matter involving specific parties at this time. Furthermore, 
it is unlikely that any of my clients within the last year or Baker 
Botts would be involved in this design and construction. However, in 
the event that it does become a particular matter involving specific 
parties, I will recuse myself from any such particular matters 
involving specific parties in which: (1) Baker Botts is a party or 
represents a party for a period of one year from my resignation or 
confirmation, whichever occurs later; or (2) a former client of mine 
that I represented within the last year, is a party or represents a 
party, for a period of one year after I last provided service to that 
client or my confirmation, whichever occurs later.
    Question 4. Operation of the Strategic Petroleum Reserve including 
receipt and exchange of Royalty-in-Kind oil from any or all U.S. leases 
and the determination of compliance with the conditions established in 
Section 301 of EPACT 2005.
    Answer. To the best of my knowledge, Baker Botts is not involved in 
particular matters involving specific parties that are related to the 
operation of the Strategic Petroleum Reserve or entitlement to 
particular volumes of crude oil from particular leases, nor is it 
likely to become so involved. However, if this unlikely event occurs, I 
will recuse myself from any such particular matters involving specific 
parties in which Baker Botts is a party or represents a party for a 
period of one year from my resignation or confirmation, whichever 
occurs later. I also will recuse myself from any such particular 
matters involving specific parties in which a former client of mine 
that I represented within the last year, is a party or represents a 
party, for a period of one year after I last provided service to that 
client or my confirmation, whichever occurs later.
    Question 5. Establishment and operation of the Oil Shale, Tar 
Sands, and Unconventional Fuels Program pursuant to Section 369 of 
EPACT 2005.
    Answer. To the best of my knowledge, Baker Botts is not involved in 
particular matters involving specific parties that are related to the 
operation of the Oil Shale, Tar Sands, and Unconventional Fuels 
Program, nor is it likely to become so involved. However, if this 
unlikely event occurs, I will recuse myself from any such particular 
matters involving specific parties in which Baker Botts is a party or 
represents a party for a period of one year from my resignation or 
confirmation, whichever occurs later. I also will recuse myself from 
any such particular matters involving specific parties in which a 
former client of mine that I represented within the last year, is a 
party or represents a party, for a period of one year after I last 
provided service to that client or my confirmation, whichever occurs 
later.


</pre></body></html>
